MAY 3 1 2021
IN THE
SUPREME COURT OF THE UNITED STATES

— PETITIONER
(Your Name)
vs.

ArtW Morburggr- _ RESP0NDENT(S)
ON PETITION FOR A WRIT OF CERTIORARI TO

r i ct Couc-b 0~P /A pp£o.\

) h )VoL

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

L powers
(Your Name)

/tSoo (aJ asUiVi^pon Avc .
(Address)

MUmi

Beach ML

(City, State, Zip Code)

~33ci"' 43>?>5
(Phone Number)

i

RECEIVED
JUN - 8 2021

L POWERS
UNITED STATES SUPREME COURT
PETITIONER
WRIT OF CERTIORARI
FROM 3DCA OF APPEAL OF FLORIDA
VS
ARTHUR MORBURGER
CASE #20-1012
RESPONDENT
LC CASE #19-34863
QUESTION
The Double Jeopardy Clause of the Fifth Amendment is applicable
to any State proceeding whose sole purpose is punishment. Thus, all trials
and such are subject to Double Jeopardy protections.
Double Jeopardy was designed to protect against government
oppression, which is needed; my local government is oppressive.
The Fifth Amendment states, "No person shall... be subject for
same offense [property fraud] to be TWICE put in Jeopardy of life or limb"
which I WAS more than twice via mail fraud, forgery/ altering/ omitting
docs/ switching documents, and, or creating false facts & dockets & not
process serving me, as done in my condo and storage cases, where I
proved FRAUD But I'm a victim of Syndicate Court Fraud by the Court.
i^fCan the Double Jeopardy Clause Apply To Innocent Persons
THRUST in ‘Criminal’ Courts Rendering False Judgments albeit in’
Civil Court?!
When There’s no relief. What’s the point in going to Court?
[? Does Fraud On The Court By Court Violate Citizens' Property]
Rights under the 14th & 5th Amendments Due Process Clauses?

UNITED STATES SUPREME COURT
WRIT OF CERTIORARI
FROM 3DCAOF APPEAL OF FLORIDA
VS
CASE #20-1012
ARTHUR MORBURGER
LC CASE #19-34863
RESPONDENT
L POWERS
PETITIONER

LIST OF PARTIES
[ ] All parties appear in the caption of the case on the cover page. [ x ] All
parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of
this petition is in U.S. Supreme Court Case 2019-6695. Barry Shevlin
Esq was in charge of copying all parties. I will add names to the List of ET
ALs from New York and Miami upon this Writ Of Certiorari’s Acceptance.
RELATED CASES
RIGWAN VS NEUS, 2005-018381 -CA-01 Trial Court 11th Judicial Circuit in
Miami-Dade County, Florida. 2nd False Judgement Miami. Florida.
Recused Judge. Judgement entered June 20, 2008.
SOUTH BCH BAYSIDE CONDO ASSN I INC VS RIGWAN. 2008-041113CA-01. Trial Court 11th Judicial Circuit in Miami-Dade County, Florida.
$30k, says $21 k False Mortgage Foreclosure Charge again, Condo Abuses
Triple Jeopardy Never Tried again, Neus’s name added to parties 2019.
Judgement entered Sept. 18, 2009. Satisfied Judgment Sept. 23, 2010
SOUTH BEACH BAYSIDE CONDOMINIUM ASSOCIAT VS RIGWAN,
2013-033946-CA-01. Trial Court 11th Judicial Circuit in Miami-Dade County,
Florida. Original Lien Missing and Seen Altered in Future Cases. Neus’s
name added to parties 2019. Original Deed Missing Years and put back
after Proving Fraud 2020. Non Existent Docket Entries Post Aug. 6, 2015
Appear. Forged Order Oct. 21, 2015 Appears and that Lawyer Fired.
Res Judicata Judgement entered Aug. 6, 2015.

UNITED STATES SUPREME COURT
WRIT OF CERTIORARI
FROM 3dca OF APPEAL OF FLORIDA
VS
CASE #20-1012
ARTHUR MORBURGER
LC CASE #19-34863
RESPONDENT
RELATED CASES—Pgs 2.
L POWERS
PETITIONER

RIGWAN VS SOUTH BEACH BAYSIDE CONDOMINIUM ASSOCIATION I
2017-029902-CA-01, Trial Court 11th Judicial Circuit in Miami-Dade County,
Florida. Judgement Denied Writ Prohibition (CG) entered Jan. 22, 2018.
SOUTH BEACH BAYSIDE CONDOMINIUM ASSOCIATION I. VS
RIGWAN. 2016-005009-CC-25. Trial County Court in Coral Gables (CG) in
Miami-Dade County, Florida. False Mortgage Foreclosure. False Fees on
My Birthday Apr. 20, 2018. Condo Abuses Never Tried. Incriminating
Transcript Uploaded. Morburger Never Informed That Condo Foreclosed
On Twice. I learned from record 2019. Judgement entered Apr. 17, 2018.
RIGWAN VS SOUTH BEACH BAYSIDE CONDOMINIUM ASSOCIATION I
2018-017351-CA-01. Trial Court 11th Judicial Circuit in Miami-Dade County
Florida. Case Proves Judgement Over $15K and Fraud In Other Cases.
Rule Nisi entered June 1. 2018. Nunc Pro Tunc False Amended Judicial
Joke Order Thanks to Morburaer’s Unclean Hands entered Aug. 2. 2018.
RIGWAN VS LYNX MGMT ET AL, 2017-020072-CC-05. Trial County Court
in Miami-Dade County, Florida. Fraud. Judgement Dismissed Mar. 2, 2020.
RIGWAN VS SOUTH BEACH BAYSIDE CONDO ASSOC. 2018-000137AP-01, Circuit Court 11th Judicial Circuit Appellate Division in Miami-Dade
County, Florida. Fake Case. Morburger Unclean Hands. They copy him
though Withdrawn. Judgement Denies Dismissal Oct. 8, 2020 Transfer to
3DCA 21-0012 entered Dec. 1, 2020. 3DCA Appeal entered Jan. 5, 2021.
RIGWAN VS NEUS. 2019-032361 -CA-01. Trial Court 11th Judicial Circuit in
Miami-Dade County, Florida. 2nd Recusal Order entered Dec. 22, 2020.
Open case.
RIGWAN VS JORDAN. 08-1906, Third District Court Of Appeals in Miami
Florida. Judgement entered Sept. 4, 2008.
RIGWAN VS SOUTH BEACH BAYSIDE CONDO. 09-0053, Third District
Court Of Appeals in Miami, Florida. Judgement entered Sept. 9, 2009

L POWERS
PETITIONER

UNITED STATES SUPREME COURT
WRIT OF CERTIORARI
VS
FROM 3dca OF APPEAL OF FLORIDA
CASE #20-1012
ARTHUR MORBURGER
LC CASE #19-34863
RESPONDENT
RELATED CASES—Pgs 3.
RIGWAN VS SOUTH BEACH BAYSIDE CONDO, 18-0330, Third District
Court Of Appeals in Miami, Florida. Judgement entered Feb. 26, 2018.
RIGWAN VS NEUS. 18-1642, Third District Court Of Appeals in Miami,
Florida. Judgement entered Apr. 17, 2019. Rush Eviction Anon Order.
RIGWAN VS NEUS, 18-0811, Third District Court Of Appeals in Miami,
Florida. Judgement entered May 29, 2019. Fishy Case W/ Skeletons.
RIGWAN VS NEUS, 18-1235, Third District Court Of Appeals in Miami,
Florida. Consolidation Case Judgement entered May. 29, 2019.
RIGWAN VS SOUTH BEACH BAYSIDE CONDO ASSOC. 21-0012, Third
District Court Of Appeals in Miami, Florida. 0 Judgement. Open Case.
RIGWAN v. NEUS, 2000-21069. Supreme Court, Suffolk County (Central
Islip, L.l. though his office is in Riverheadl First Unconscionable. 1-Sided.
Fraudulent Judgment. Syndicate Made Docket To Appear Factual.
Years Later I See The False Record and Piece All Together Easily. Judge
T. Whelan sent my case to Florida 50/50 State, where Miami Syndicate
created 2nd False Judgement led by Judge M. Rodriguez. He knew I was in
a Homeless Marriage 3+years. I showed Restraining Order where I was
attacked to get-out and found they altered the Residency Requirement
(which they altered since 2018 officially).Judgement entered Aug. 23, 2003.
RIGWAN v. NEUS, 2017-309696. Supreme Court Of State New York
CountyJudge Katz couldn’t overturn fraudulent case transfer to Long Island
Court via Interstate Mail Fraud Scheme. Judgement entered May 16, 2019
RIGWAN v. NEUS. 2017-6021, Supreme Court, Suffolk County (Central
Islip, L.l.) Judge Quinn ET AL Illegally Transferred case from Manhattan to
Central Islip Court & Judged Without My Awareness, Mail Fraud, No
Process Service, One Legal Assistant Fired. See Appendix _H_ for proof
of fake process service. Sabotaged Judgement entered Apr. 5, 2019.

L POWERS
UNITED STATES SUPREME COURT
PETITIONER
WRIT OF CERTIORARI
FROM 3DCAOF APPEAL OF FLORIDA
VS
CASE #20-1012
ARTHUR MORBURGER
LC CASE #19-34863
RESPONDENT
RELATED CASES—Pgs 4.
RIGWAN v. NEUS. 2018-???. Supreme Court Of New York Appellate
Division: First Department (Manhattan). Denied Poor Person’s Relief. 2018
RIGWAN v. NEUS. 2019-07711. Supreme Court Of New York Appellate
Division: Second Department (Brooklyn). I Proved Interstate Fraud; Chief
Judge Scheinkman Wouldn’t Recuse; He Left Office. A Main Lawyer Left
Without Notice. Showed Religious Wedding Proof, Res Req Altered, And
Rest. Order. Delaying Now. Open Case
RIGWAN V NEUS. 2019-6695. U.S. Supreme Court in Washington D.C.
Neus ET AL Lied to U.S. Supreme Court; Neus brought zero contracts,
said otherwise, and was represented. Judgement entered Apr. 20, 2019.

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED.....3 - 4
STATEMENT OF THE CASE

5-11

REASONS FOR GRANTING THE WRIT

12

CONCLUSION

13

UNITED STATES SUPREME COURT
L POWERS
WRIT OF CERTIORARI
PETITIONER
FROM 3dca OF APPEAL OF FLORIDA
VS
CASE #20-1012
ARTHUR MORBURGER
LC CASE #19-34863
RESPONDENT
INDEX TO APPENDICES
APPENDIX A

Decision of Florida Court of Appeals Dated 01/20/2021

APPENDIX B

Decision Of Florida Trial Court

APPENDIX C

Decision of Florida Supreme Court Denying Review

APPENDIX D

Order of Florida Court of Appeals Denying Rehearing

APPENDIX E

Order (Rule Nisi)

APPENDIX F

Amended Fraud Order (Morburger Cited Nunc Pro Tunc)

APPENDIX G

Morburger Cited Fraudulent Transfer Bankruptcy Court

APPENDIX H

Fictitious Proof Process Service re: Manhattan Transfer

APPENDIX I

Omitted Hearing (Claims Zero Hearings, Tampered)

APPENDIX J

1994 Original Condo Deed (No Mortgage)

APPENDIX K

Quick piaim Deed (Clouds, Legal Description Defect)

APPENDIX L

Residency Req. Not Met. New York UNDER A YEAR.

APPENDIX M

Biased Judges set case to CONFIDENTIAL IN RED INK.

APPENDIX N

Biased Judges Order To Get Rid Of Me & Uphold Crimes

APPENDIX O

Proof Chief/Court Fraud ET AL, Response To Appendix N

APPENDIX P

Religious Wedding Proof (Intent Condo Gift For Children,
not homelessness NYC 3-Years or rent out condo.)

APPENDIX Q

False Mortgage Fees (example in Distributing Funds)

UNITED STATES SUPREME COURT
L POWERS
WRIT OF CERTIORARI
PETITIONER
FROM 3DCA OF APPEAL OF FLORIDA
VS
CASE #20-1012
ARTHUR MORBURGER
LC CASE #19-34863
RESPONDENT
INDEX TO APPENDICES- Pg. 2
APPENDIX R

Forged Lien (Taken from 2013 Case, Not Orginal)

APPENDIX S

Res Judicata Order missing 2017-2021. Returned.
Lawyer got fired. All in on it.
TABLE OF AUTHORITIES
PAGE NUMBER

CITED CASES
Burbrooke Mfg. Co. v. St. George Textile Corp.
283 AD 640 (1st Dept. 1954) pg. 641................

Pg. 6

“fictitious writings and false testimony to advance or to consummate
the fraudulent scheme. The distinction is based upon the principle
that a fraudulent scheme which is greater in scope than the issues
that were determined in the action or proceeding may become the
basis of an action.”
Verplanck v. Van Buren 76 N.Y 247 (1879), pgs. 260-261

Pg. 5

“The false testimony is not the sole moving factor in the cause of
action. The fraudulent purpose or intent, formed before the
accounting and trial, the fraudulent concoction of the unreal contracts.
and the false entries in the books of account, are the chief bases of
the cause of action. The acts of the defendants upon the trial are but
a part of an entire transaction.”
STATUTES AND RULES
Domestic Relations Law 7 (4)
• “marriage is void ... consented to ... fraud.”

Pg. 8

UNITED STATES SUPREME COURT
L POWERS
WRIT OF CERTIORARI
PETITIONER
FROM 3DCA OF APPEAL OF FLORIDA
VS
CASE #20-1012
ARTHUR MORBURGER
LC CASE #19-34863
RESPONDENT

TABLE OF AUTHORITIES- Pg. 2
Pg. 8

Domestic Relations Law 239 (4)

• residency requirement not met 2003. Learned of Fraud 2018.
For this petition, I noticed they changed the rule 2021.
Domestic Relations Law 140 (e)

Pg. 8

• “An action may be brought during lifetime of offending party ...
at any time.” Must be shown that the fraud would deceive
ordinarily prudent person, and consent given due to the fraud
Florida Statute 720.306, 6 (5) Notice Of Meetings:

Pg. 9

• Building Was Transferred Illegal Meeting Hurricane Irma
OTHER
I pray this Court upholds the 14th Amendment’s guarantee that the
Due Process Clause is a fundamental right essential to a fair trial and, as
such, clarifies that the Double Jeopardy Clause in the Fifth Amendment to
the U.S. Constitution applies to Judges ET AL Syndicates involved in
crimes, albeit, fraudulent transfers to reward guilty parties, as the sole
purpose of the Clause is punishment. This would make this case
Equal for The People.

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is
y'

to

[ ] reported at
; or,
[ ] has been designated fdr publication but is not yet reported; or,
[ ] is unpublished. /
The opinion of the United States district court appears at Appendix
the petition and is

to

[ ] reported^ at
5 or,
[ ] has be&n designated for publication but is not yet reported; or,
[ ] is unpublished.
[vf For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the _
appears at Appendix

court
to the petition and is

[ ] reported at
5 or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

JURISDICTION

[ ] For cases from federal courts:
The date on which the United States Court^n Appeals decided my case
was______________________ x
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehparing was denied by the United States Court of
, and a copy of the
Appeals on the followuag date: ____________
order denying rehearing appears at Appendix
[ ] An extension or time to file the petition for a writ of certiorari was granted
(date)
to and including______
(date) on

in Application No. __A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[Vl For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix O___
[vj A timely petition for rehearing was thereafter denied on the following date:
^ ) 3.t> | ^
f anci a COpy 0f the order denying rehearing
appears at Appendix
__
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date) in
(date) on
to and including_____
Application No. _^Arl
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

Cy/3

Pehfi firmer SeeXs fctvveuu of T>iSpo£rWo^ decided.
l/ao[a\. A co(Kj of-Hvtf cXcc\s\or\
ors
oJr Arfp-e^**

A
2..

UNITED STATES SUPREME COURT
L POWERS
WRIT OF CERTIORARI
PETITIONER
FROM 3dca OF APPEAL OF FLORIDA
VS
CASE #20-1012
ARTHUR MORBURGER
LC CASE #19-34863
RESPONDENT

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

14th Amendment Due Process Clause
fair application law wasn’t rendered before properties seized, guarantees
“due process of law.” Courts Held Mock Trials On Mock Judgments &
Orders, put me/my life/ my properties in danger = due process violation,
offends rule of law. not their only victim, adversaries court connected
politics & wealth violation Equal Protection Clause.
5th Amendment
This petition sets out to uphold no one "deprived of life, liberty or property
without due process of law." says must be given notice: stopped my mail
service 2017: Mail Fraud to miss Court dates, which I did. Morburger Et AL
non-neutral decision makers, who ultimately made deadly decisions
on both mv storage & condo properties vs Double Jeopardy Clause.

3

UNITED STATES SUPREME COURT
WRIT OF CERTIORARI
FROM 3DCA OF APPEAL OF FLORIDA
VS
CASE #20-1012
ARTHUR MORBURGER
LC CASE #19-34863
RESPONDENT
L POWERS
PETITIONER

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED- Pg.2
Procedural (fundamental fairness) Due Process Violation
deprived of my name on my storage property 2018; therefore, deprived
of my storage units properties. Judgments & Orders Altered Biasedlv Favor­
ing Defendants Making All Constitutionally Inadequate-against Bill Of
Rights & 10 Commandments.
*

Takings Clause (5th Amendment):

“Nor shall private property be taken for public use, without just
compensation.”
* Violated Florida Statute Of Frauds:

Fraudulent Transfers- Title XLI

* Violated Florida Statute Of Crimes:

Fraudulent Practices- Title XLVI,

Chapter 817, Part I- False Pretenses And Frauds and Bribery. Misuse
Of Public Office- Title XLVI, Chapter 838.
* Violated Florida Statute Of Real And Personal Property: Title XL,
Chapter 720.401, 720.402, Part II- Home Owners Associations Disclo­
sure (Hotel Conversion) Prior Sale Of Residential Parcels (at Auction).

4

UNITED STATES SUPREME COURT
L POWERS
WRIT OF CERTIORARI
PETITIONER
FROM 3DCA OF APPEAL OF FLORIDA
VS
CASE #20-1012
ARTHUR MORBURGER
LC CASE #19-34863
RESPONDENT

STATEMENT OF THE CASE
This storage unit property case opens a can of worms to a world
of PROPERTY Interstate FRAUD BY JUDGES ET AL. I’d like vou to
revisit the Double Jeopardy Clause as these Judges criminally took
mv Condo in Two-(2) States. Morburaer Esa (mv attorney) and a
Judges Syndicate switched out a document from a rule nisi (Appendix E )
to a nunc pro tunc illegally (Appendix F ) to assume mv condo. Morburger
and that Court Syndicate ET ALS. who then Put Mv Storage Property In
Double/Triple Jeopardy after they STOLE MY CONDO, should be held
accountable as per the 14th Amend’s Lack Of Due Process Clause and
"No person shall ...be subject for the same offense to be twice put in
jeopardy of life or limb Twhich I am literallvlthe 5th Amendment to the
U S. Constitution Double Jeopardy Clause. I am more than Twice
Suffering and I Am Innocent. They Are Criminals by Evidence. Look!
An 1879 Precedential case states that the “fraudulent concoction of
the unreal contracts, and false entries in the books of account, are the chief
bases of the cause of action. The acts of the Hudoesl upon the trial are but

5

UNITED STATES SUPREME COURT
L POWERS
WRIT OF CERTIORARI
PETITIONER
FROM 3DCA OF APPEAL OF FLORIDA
VS
CASE #20-1012
ARTHUR MORBURGER
LC CASE #19-34863
RESPONDENT
STATEMENT OF THE CASE- Pg. 2
a part of an entire transaction”. Verplanck v. Van Buren 76 N.Y 247, ^to
advance or consummate the fraudulent scheme ... greater in scope than
the issues”. Burbrooke Mfg. Co. v. St. George Textile Corp. 283 AD 640.
Respondent Morburaer. mv attorney, fraudulently transferred his
name alone to mv 5 storage units of property via a Procedural Du
Process Violation instead of putting my name on them, in this case
presented for Writ of Certiorari, upon being falsely evicted to the streets
with my storage items as a condo owner by conniving Morburger ET AL
(w/in a Judges Syndicate) on both storage case + condo case.
See Miami Bankruptcy case Tabas v. First Consultant Services. Inc..
#1:20-ap-01071: Morburger is cited a 6548 fraudulent transfer (in an
unrelated case) against Amends 14 & 5 (Appendix G ). He’s a bad guy.
I lost mv condo home + now storage possessions due to Morburaer Esa
Providing Fraudulent Transfers within a Judges Syndicate Playing Both
Sides Endangering People having nothing to do with law.

6

UNITED STATES SUPREME COURT
L POWERS
WRIT OF CERTIORARI
PETITIONER
FROM 3DCA OF APPEAL OF FLORIDA
VS
CASE #20-1012
ARTHUR MORBURGER
LC CASE #19-34863
RESPONDENT
STATEMENT OF THE CASE- Pg. 3
Morburger/Syndicate (in my storage unit case) appear via a Taped.
Televised Oral Argument (in condo easel With False Facts for review upon
acceptance of this case where There is No Relief in Double Jeopardy bv
Criminal Morburoer Esq/ Judges Syndicate ET AL Frauding the Court
TWICE in Storage & Condo Criminal Cases to get paid on my Building’s
‘Secretive’ Construction Hotel Deal “civilly”. Never went before the Miami
Beach Commission either. They fixed books, records, dockets, law to win!
Miami Appellate Judges intentionally didn’t process serve me
(storage easel bv E-Mailina Orders via Miami Court’s E-Portal Service-so
I’d miss deadlines. NY Courts illegally transferred condo case from
Manhattan back to corrupt Long Island Court via Interstate Mail Fraud
(Appendix _H_ with affixed labels not even addressed to me) making me
miss the hearing so couldn’t reverse 1st Unconscionable Fraud Judgment.
This Storage Property Case for certiorari, Miami Docket Omitted
Original storage Payments + Claim Zero hearings (Appendix _l_ of Set
Hearing). I scrambled to replace proof quickly. Morburoer lied/ claimed no
jurisdiction lack of process service. I proved false w/photos & receipts.
i

UNITED STATES SUPREME COURT
L POWERS
WRIT OF CERTIORARI
PETITIONER
FROM 3DCA OF APPEAL OF FLORIDA
VS
CASE #20-1012
ARTHUR MORBURGER
LC CASE #19-34863
RESPONDENT
STATEMENT OF THE CASE- Pg. 4
In Condo Case, Miami Judges intentionally changed long-standing
legal descriptions law Jan. 2019 against the Other State Courts and
Florida Real Estate Law (Appendix _J_ Original 1994 Deed. Appendix K
Quick Claim 1999 Deed w/different legal descriptions). NY Judge ET
AL changed residency reguirementto divorce (Appendix _L_)~though
we were in NY less than a year-to uphold larger scheme: property fraud,
TWICE, Two States: New York + Florida. Making homeless2x. Judges 2020
set this case aside as CONFIDENTIAL to uphold FRAUD (Appendix _M_).
Interestingly, as a result, in Miami 3DCA Judges got promoted to FL
Supreme Court (Lagoa & Luck), Emas to Chief Justice + Hendon to 3DCA
while in NY Chief Justice Scheinkman 2nd Dep. in Brooklyn didn’t return all
together after I motioned for his recusal/ proved he/they Falsified Orders
there too and are also Unfit Legal servants/defenders of law not equally
protecting the people (Appendix _N_ & _0_). Lawyers Miami/ NY
Syndicate Double Jeopardy Case got fired and the alike; case is cracked
but there is no recourse for Double Jeopardy on an Innocent Person in civil
court by the courts. I went to FBI, Secret Service, DOJ, Others. Help!
8

UNITED STATES SUPREME COURT
L POWERS
WRIT OF CERTIORARI
PETITIONER
FROM 3DCA OF APPEAL OF FLORIDA
VS
CASE #20-1012
ARTHUR MORBURGER
LC CASE #19-34863
RESPONDENT
STATEMENT OF THE CASE- Pg. 5
Morburger/ Syndicates Interstate Mock Trials based on Lies Altered
Truths in Judgments/ Orders they created/ upheld for YEARS against DRL239 (4), 140 (e), and 7 (4) until they sold Demolished Buildinq@AUCTION
with Lies. Forgery & Cvber Hacking against F.S.-720.306 (6)(5) + 14th/5th
Amendments. THEY Never discussed Condo’s Defects/ Clouds in
Quick Claim. Wedding Gift by promise exchange for children (Appendix:
Religious proof _P_ ), or Lenathv Abuses endured by Corrupt Condo
Associations ET AL—who wielded truth into false foreclosures/ liens more
than TWICE—they are Criminals Literallvl I’m holding on barely 4U!
Morburger never informed me of two (2) published foreclosures
+ applied mortgage fees (Appendix _Q_) aka kickbacks. Crazy since I
BOUGHT MY CONDO FREE & CLEAR 1994, first/ only owner w/ Uncle.
Never jury tried on condo abuses by associations vs. false monetary
claims & lien forgery (Appendix _R_). I paid maintenance, special
assessments alone, w/o H20 shower water during/ after cases 18+ yrs.
They attacked me on my Birthdays & on 9/11s’: NY, Miami, DC.

9

UNITED STATES SUPREME COURT
L POWERS
WRIT OF CERTIORARI
PETITIONER
FROM 3dca OF APPEAL OF FLORIDA
VS
CASE #20-1012
ARTHUR MORBURGER
LC CASE #19-34863
RESPONDENT
STATEMENT OF THE CASE- Pg. 6
Maria Garcia another Miami victim.
Make It Equal for People. Revisit the Double Jeopardy Clause,
Your Honor. Syndicates don’t allow fair trials and want me/others dead. If
first Unconscionable One-Sided Trial was Fair, I wouldn’t have Pages Of
Related Cases, and more. I shouldn’t have been rendered homeless even
once or my condo or my storage stolen by dishonest law keepers.
Morburger Esq/ Judges Syndicate TWICE unclean hands both
storage & condo fraudulent transfers. I won res judicata (Appendix
_SJ; They ET AL Omitted Order 2017, put it back 2021 w/ lawyer fired.
I should have my name on my storage alone and be justly compensated.
Please look at the Double Jeopardy Clause for innocent people vs Criminal
Courts. I proved it more over!
Morburger w/ accomplices 2019 tried to kill me, stated on separate
occasion they want my storage on street [too] after condo seizure.
U.S. Supreme Court case# 19-6695 stated brought many sales condo
contracts ( LIE); BROUGHT ZERO, AND Morburger DIDN’T OBJECT TO

10

UNITED STATES SUPREME COURT
L POWERS
PETITIONER
WRIT OF CERTIORARI
FROM 3DCA OF APPEAL OF FLORIDA
VS
CASE #20-1012
ARTHUR MORBURGER
LC CASE #19-34863
RESPONDENT
STATEMENT OF THE CASE- Pg. 7
THIS either at Oral Arguments (Miami) w/ Syndicate on Court TV. He has
2-other property cases w/ this Syndicate.
Styling of Old & All Cases falsely include names on parties list, to
convey false representation of who fought in Rigged Courts to save my
condo; unjustly added lawyers, a clerk, it’s a mess. Falsified notices of
appearance. Tampered with my docket labeling to throw off reader/confuse
Morburger played both sides ...I can prove it. Worst. Tampered Orders
are placed in Format to Upload Docs: look special/ formatted page w/
added book #.
I deserve(d) a declaration of nullity due to marriage fraud. Had
fraudulent reps who sided with powerful courts with a disregard for my life,
the truth and justice (I seek). Why else would an 83-page Notice Of Appeal
sent from Suffolk County to the 2nd Department on 6/7/19 go missing, and
more. I gave him my all, moved to NY, he stole all and said I couldn’t pay
rent. Morburger Esq stole my condo & storage properties.

ii

UNITED STATES SUPREME COURT
WRIT OF CERTIORARI
FROM 3DCA OF APPEAL OF FLORIDA
VS
CASE #20-1012
ARTHUR MORBURGER
LC CASE #19-34863
RESPONDENT
L POWERS
PETITIONER

Reasons for Granting the Petition
- Judges Syndicate Violated Laws of Due Process & Committed Federal
Crimes: Falsifying Judgements & Orders, Mail Fraud & More Schemes
Putting Me In Double. Triple & Quadruple Jeopardy Without Relief.
- Respondent is Conspiring with Courts ET AL regarding Fraudulent
Transfers of Condo & Storage = Double Jeopardy + Unconstitutional.
- This is a Great Cause!
- The LC case only has 22 docket entries, which were cyber hacked. It
says it has zero (0) hearings, which is untrue. See Appendix _l_
- It’s Uncomplicated.
- 3DCA Judges Conflict with Other Florida Appellate Courts and the Florida
Real Estate Law regarding the 2019 Omissions Of Legal Descriptions.
- Evidence in Contracts, Statutes, and Laws are in Petitioner’s Favor.
- THE PEOPLE DESERVE RELIEF, FINALITY, AND JUSTICE.
- WE HAVE A RIGHT TO FAIR JUDICIAL TREATMENT.
12

UNITED STATES SUPREME COURT
L POWERS
PETITIONER
WRIT OF CERTIORARI
FROM 3DCA OF APPEAL OF FLORIDA
VS
CASE #20-1012
ARTHUR MORBURGER
LC CASE #19-34863
RESPONDENT
CONCLUSION

The petition for a writ of certiorari should be granted.
Respectfully submitted,

Date:

s/aq/ai

13

